IN THE COURT OF COMMON PLEAS OF THE 22nd JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
COUNTY OF WAYNE
COMMONWEALTH OF
PENNSYLVANIA
VS.
CRIMINAL ACTION
ANTHONY THOMAS BUONAIUTO III.,
Defendant

NO. 84-CRIMINAL-2014

ORDER
AND NOW, to wit, this

day of February, 2019, upon consideration of Defendant’s

response to this Court’s proposed dismissal, it is hereby ORDERED that Defendant’s Petition for
Post-Conviction Collateral Relief is DISMISSED.
Defendant, ANTHONY THOMAS BUONAIUTO III, has thirty (30) days from the date
of this Order to appeal to the Superior Court.

BY THE COURT

RAYMOND E7HAMILL
SENIOR JUDGE
22nd JUDICIAL DISTRICT

cc:

District Attorney
Anthony Buonaiuto (via Certified Mail, Return Receipt Requested)

SZ-'OIM

I

TC

9-mw

iiSS?

J-S45006-19

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA,

IN THE SUPERIOR COURT
OF
PENNSYLVANIA

Appellee
v.
ANTHONY THOMAS BUONAIUTO, III,
Appellant

No. 628 EDA 2019

Appeal from the PCRA Order Entered February 6, 2019
In the Court of Common Pleas of Wayne County
Criminal Division at No(s): CP-64-CR-0000084-2014
BEFORE:

BENDER, P.J.E., MURRAY, J., and PELLEGRINI, J.*

MEMORANDUM BY BENDER, P.J.E.:

FILED OCTOBER 21, 2019

Appellant, Anthony Thomas Buonaiuto, III, appeals pro se from the
post-conviction court's February 6, 2019 order denying his petition filed under
the Post Conviction Relief Act (PCRA), 42 Pa.C.S. §§ 9541-9546. After careful
review, we affirm.
According to the PCRA court, Appellant was convicted of a sexual offense
in Florida in August of 2003.

See PCRA Court Opinion, 1/11/19, at 4.

In

2012, he was notified by the Pennsylvania State Police that he was required
to register under the Sexual Offender Registration and Notification Act
(SORNA), 42 Pa.C.S. §§ 9799.10-9799.41. Appellant did not do so and, on
October 18, 2013,

he was charged with failing to register with the

* Retired Senior Judge assigned to the Superior Court.

J-S45006-19

Pennsylvania State Police, 18 Pa.C.S. § 4915.1(a)(1), and failing to verify his
address or be photographed, 18 Pa.C.S. § 4915.1(a)(2). On September 12,
2014,1 he pled guilty to the section 4915.1(a)(1) offense, and the (a)(2)
offense was nolle prossed. Appellant was sentenced on November 6, 2014,
to a term of 18 to 120 months' incarceration. He did not file a direct appeal.
On September 1, 2017, Appellant filed a pro se PCRA petition alleging
that his sentence for failing to register was illegal, as SORNA could not be
retroactively applied

to

him

under our Supreme Court's decision

in

Commonwealth v. Muniz, 164 A.3d 1189 (Pa.2017) (holding that SORNA's
registration provisions are punitive, and retroactive application of SORNA's
provisions violates the federal ex post facto clause, as well as the ex post facto
clause of Pennsylvania's Constitution).

The PCRA court appointed counsel,

but Appellant filed a petition to proceed pro se.

Accordingly, the court

conducted a Grazier2 hearing and ultimately granted Appellant's petition to
proceed pro se. On January 11, 2019, the court issued a Pa.R.Crim.P. 907
notice of its intent to dismiss Appellant's petition without a hearing, along with
an accompanying opinion. Appellant filed a timely, pro se response, but on
February 6, 2019, the PCRA court entered an order denying his petition.

1 We note that the transcript of the guilty plea erroneously states that it
occurred on September 12, 2019. The record clarifies that this date is
incorrect, and the plea occurred in 2014.
2 Commonwealth v. Grazier, 713 A.2d 81 (Pa. 1998).
- 2 -

J-S45006-19

Appellant filed a timely, pro se notice of appeal. He also filed a Pa.R.A.P.
1925(b) concise statement of errors complained of on appeal, despite not
having been ordered to do so by the court. On April 24, 2019, the court filed
a Rule 1925(a) opinion stating that it was relying on the reasons set forth in
its January 11, 2019 opinion accompanying its Rule 907 notice.
Herein, Appellant states three issues for our review:
1. Was ... [SORNA] unconstitutionally applied retroactively to
Appellant?
2. Could a sex offense committed prior to the enactment of
SORNA create a situation where retroactive application of SORNA
is not an ex post facto violation?
3. Is Appellant entitled to ex post facto protection and relief from
retroactive application of SORNA?
Appellant's Brief at 2.
This Court's standard of review regarding an order denying a petition
under the PCRA is whether the determination of the PCRA court is supported
by the evidence of record and is free of legal error.

Commonwealth v.

Ragan, 923 A.2d 1169, 1170 (Pa. 2007). We must begin by addressing the
timeliness of Appellant's petition, because the PCRA time limitations implicate
our jurisdiction and may not be altered or disregarded in order to address the
merits of a petition. Commonwealth v. Bennett, 930 A.2d 1264, 1267 (Pa.
2007).

Under the PCRA, any petition for post-conviction relief, including a

second or subsequent one, must be filed within one year of the date the
judgment of sentence becomes final, unless one of the following exceptions
set forth in 42 Pa.C.S. § 9545(b)(l)(i)-(iii) applies:
-3 -

J-S45006-19

(b) Time for filing petition.—
(1) Any petition under this subchapter, including a second
or subsequent petition, shall be filed within one year of the
date the judgment becomes final, unless the petition alleges
and the petitioner proves that:
(i) the failure to raise the claim previously was
result of interference by government officials with
presentation of the claim in violation of
Constitution or laws of this Commonwealth or
Constitution or laws of the United States;

the
the
the
the

(ii) the facts upon which the claim is predicated were
unknown to the petitioner and could not have been
ascertained by the exercise of due diligence; or
(iii) the right asserted is a constitutional right that was
recognized by the Supreme Court of the United States
or the Supreme Court of Pennsylvania after the time
period provided in this section and has been held by
that court to apply retroactively.
42 Pa.C.S. § 9545(b)(l)(i)-(iii). Additionally, at the time Appellant's petition
was filed, section 9545(b)(2) required that any petition attempting to invoke
one of these exceptions "be filed within sixty days of the date the claim could
have been presented." 42 Pa.C.S. § 9545(b)(2).3
Here, Appellant's judgment of sentence became final on December 6,
2014, and, thus, he had until December 6, 2015, to file a timely petition. His
present petition was not filed until September 1, 2017, making it patently
untimely. Accordingly, Appellant must plead and prove the applicability of one
of the timeliness exceptions. This is true even though he is alleging that his

3 A recent amendment to section 9545(b)(2), which became effective on
December 24, 2018, changed the language to require that a petition "be filed
within one year of the date the claim could have been presented." 42 Pa.C.S.
§ 9545(b)(2).
- 4 -

J-S45006-19

sentence is illegal in light of Muniz. See Commonwealth v. Fahy, 737 A.2d
214, 223 (Pa. 1999) (holding that non-waivable claims challenging the legality
of sentence are subject to review within the PCRA, but must first satisfy the
PCRA's time limits).
Appellant fails to specifically argue the applicability of any timeliness
exception.
attempt

Nevertheless, even presuming that his reliance on Muniz is an
to

meet

the

'new

9545(b)(l)(iii), this claim fails.

retroactive

right'

exception

of

section

In Commonwealth v. Murphy, 180 A.3d

402 (Pa. Super. 2018), appeal denied, 195 A.3d 559 (Pa. 2018), we explained:
[Murphy's] reliance on Muniz cannot satisfy the 'new retroactive
right' exception of section 9545(b)(l)(iii). In Commonwealth v.
Abdul-Salaam, 571 Pa. 219, 812 A.2d 497 (2002), our Supreme
Court held that,
[sjubsection (iii) of Section 9545 has two requirements.
First, it provides that the right asserted is a constitutional
right that was recognized by the Supreme Court of the
United States or this court after the time provided in this
section. Second, it provides that the right "has been held"
by "that court" to apply retroactively. Thus, a petitioner
must prove that there is a "new" constitutional right and
that the right "has been held" by that court to apply
retroactively. The language "has been held" is in the past
tense. These words mean that the action has already
occurred, i.e., "that court" has already held the new
constitutional right to be retroactive to cases on collateral
review. By employing the past tense in writing this
provision, the legislature clearly intended that the right was
already recognized at the time the petition was filed.
Id. at 501.
Here, we acknowledge that this Court has declared that,
"Muniz created a substantive rule that retroactively applies in the
collateral context." Commonwealth v. Rivera-Figueroa, 174
A.3d 674, 678 (Pa. Super. 2017).
- 5 -

J-S45006-19
However, because [Murphy's] PCRA petition is untimely (unlike
the petition at issue in Rivera-Figueroa), he must demonstrate
that the Pennsylvania Supreme Court has held that Muniz
applies retroactively in order to satisfy section 9545(b)(l)(iii).
See Abdul-Salaam, supra. Because at this time, no such
holding has been issued by our Supreme Court, [Murphy] cannot
rely on Muniz to meet that timeliness exception.
Id. at 405-06 (emphasis in original; footnote omitted).
As in Murphy, Appellant's petition is untimely and he cannot
demonstrate that Muniz satisfies the exception of section 9545(b)(l)(iii).
Accordingly, we affirm the order denying his petition.4
Order affirmed.
Judgment Entered.

Joseph D. Seletyn, Esdj*
Prothonotary

Date: 10/21/19

4 The PCRA court did not assess the timeliness of Appellant's petition but,
instead, denied his legality of sentencing claim on the merits. However, "this
Court may affirm the decision of the PCRA [c]ourt if it is correct on any basis."
Commonwealth v. Hutchins, 760 A.2d 50, 54 (Pa. Super. 2000) (citing
Commonwealth v. Pursell, 749 A.2d 911, 917 (Pa. 2000); Commonwealth
v. Ahlborn, 683 A.2d 632, 641 n.14 (Pa. Super. 1996)).
- 6-

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 752 MAL 2019

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

ANTHONY THOMAS BUONAIUTO III,
Petitioner

ORDER

PER CURIAM
AND NOW, this 28th day of April, 2020, the Petition for Allowance of Appeal is
DENIED.

r

PRISIONER MAIL BOX RULE

I, hereby Certify, that this filing complies with the Prisoner Mailbox Rule for
filing Petitions in Criminal Proceedings. I verify, that this Petition for Writ of
Certiorari has been filed with the Clerk of Records for the United States Supreme
Court with-in the (90) day period pursuant to 28.U.S.C 1257, and has been placed
in the mailbox at the State Correctional Institution Somerset prior to the
Expiration of such (90) day period.

Respectfully Submitted,
Anthony Bu^haiuto (LT-8967)
S.C.I Waymart
11 Fairview Drive
Dated: July 23rd 2020
Waymart Pa, 18472

